APPENDICES

1a
APPENDIX A
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-1124
Consolidated with 19-1159, 19-1160, 19-1162
AMERICAN FUEL & PETROCHEMICAL
MANUFACTURERS,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY,
Respondent,
GROWTH ENERGY, ET AL.,
Intervenors.
On Petitions for Review of an Order
of the Environmental Protection Agency
Argued April 13, 2021
Decided July 2, 2021
Filed July 2, 2021
*

*

*

Before: ROGERS, PILLARD and WILKINS, Circuit
Judges.
Opinion for the Court by Circuit Judge ROGERS.
ROGERS, Circuit Judge: In October 2018, the President directed the Environmental Protection Agency
“to initiate a rulemaking to consider expanding Reid

2a
Vapor Pressure waivers for fuel blends containing gasoline and up to 15 percent ethanol,” also known as E15,
and to “increase transparency in the Renewable Identification Number (RIN) market,” a feature of the Renewable Fuel Standard (“RFS”) program. White
House, Fact Sheet: President Donald J. Trump Is Expanding Waivers for E15 and Increasing Transparency
in the RIN Market (Oct. 11, 2018) (emphasis omitted).
EPA issued a final rule on June 10, 2019, after notice
and comment, revising its regulations on fuel volatility
and the RIN market. Modifications to Fuel Regulations To Provide Flexibility for E15; Modifications to
RFS RIN Market Regulations, 84 Fed. Reg. 26,980
(June 10, 2019) (the “E15 Rule”). In Section II, EPA
announced a new interpretation of when the limits on
fuel volatility under the Clean Air Act could be waived
pursuant to 42 U.S.C. § 7545(h)(4), and relatedly reinterpreted the term “substantially similar” in Subsection 7545(f)(1)(A). In these consolidated petitions for
review, the petroleum and ethanol industries as well as
the Small Retailers Coalition challenge EPA’s decision
to grant a fuel volatility waiver to E15. For the following reasons, we hold that Section II exceeds EPA’s authority under Section 7545 and therefore vacate that
portion of the E15 Rule.
I.
The Clean Air Act establishes, among other things,
“a comprehensive scheme for regulating motor vehicle
emission and fuel standards for the prevention and control of air pollution.” Ethyl Corp. v. EPA, 51 F.3d 1053,
1054 (D.C. Cir. 1995). Section 211 of the Act, 42 U.S.C.
§ 7545, addresses the regulation of fuels.
To safeguard the efficacy of emission control devices in motor vehicles, Subsection 7545(f) restricts the

3a
introduction into commerce of new fuels and fuel additives. See Am. Methyl Corp. v. EPA, 749 F.2d 826, 829
(D.C. Cir. 1984). It is
unlawful for any manufacturer of any fuel or
fuel additive to first introduce into commerce,
or to increase the concentration in use of, any
fuel or fuel additive for general use in light duty motor vehicles manufactured after model
year 1974 which is not substantially similar to
any fuel or fuel additive utilized in the certification of any model year 1975, or subsequent
model year, vehicle or engine under section
7525 of this title.
42 U.S.C. § 7545(f)(1)(A) (emphasis added). This limitation is subject to waiver, upon application and after notice and opportunity for comment, if “the applicant has
established that such fuel or fuel additive ... will not
cause or contribute to a failure of any emission control
device or system.” Id. § 7545(f)(4).
Subsection 7545(h) limits fuel volatility. Measured
in terms of pounds per square inch (“psi”) of Reid Vapor Pressure (“RVP”), volatility reflects how readily
gasoline evaporates. Although fuel must be sufficiently
combustible to ignite under cold start conditions, gasoline vapors contain volatile organic compounds that are
a key ingredient of ground-level ozone. Nat’l Tank
Truck Carriers, Inc. v. EPA, 907 F.2d 177, 179 (D.C.
Cir. 1990). Thus, “the greater the RVP, the greater the
volatility of the gasoline and the larger the amount of
ozone formed.” Id. Because ozone is created when volatile organic compounds react with nitrogen oxides in
the presence of sunlight, see S. Coast Air Quality
Mgmt. Dist. v. EPA, 472 F.3d 882, 887 (D.C. Cir. 2006),
controlling fuel volatility is particularly important dur-

4a
ing the sunnier months of the year when ozone levels
are highest, see Nat’l Tank Truck Carriers, 907 F.2d at
179.
Subsection 7545(h)(1) directed EPA, not later than
six months after enactment of the 1990 Clean Air Act
Amendments, to “promulgate regulations making it unlawful for any person during the high ozone season ... to
sell, offer for sale, dispense, supply, offer for supply,
transport, or introduce into commerce gasoline with a
[RVP] in excess of 9.0 [psi].” 42 U.S.C. § 7545(h)(1).
The regulations were to “also establish more stringent
[RVP] standards in a nonattainment area.” Id. EPA
regulations limit the RVP of gasoline to 9.0 psi in attainment areas and 7.8 psi in nonattainment areas “during the summer season,” which generally runs from
May 1 to September 15. 40 C.F.R. § 1090.215(a) (2020);
see id. § 1090.80 (defining “summer season”).
Congress was also aware of various benefits of ethanol as compared to gasoline, however. See S. Rep. No.
101-228, at 110 (1989). Because, up to a point, adding
ethanol to gasoline increases the fuel’s RVP, requiring
E10 (fuel with 10% ethanol) to satisfy the 9-psi limit
“would likely result in the termination of the availability of ethanol in the marketplace.” Id. Subsection
7545(h)(4) provides for a waiver:
For fuel blends containing gasoline and 10 percent denatured anhydrous ethanol, the [RVP]
limitation under this subsection shall be one
pound per square inch (psi) greater than the
applicable [RVP] limitations established under
paragraph (1) ... .
42 U.S.C. § 7545(h)(4). This 1-psi waiver allows qualifying fuels to be sold during the summer months at 10.0

5a
psi in attainment areas and 8.8 psi in nonattainment areas. See 40 C.F.R. § 1090.215(b).
Both kinds of waivers—pursuant to Subsections
7545(f)(4) and (h)(4)—underlie the instant dispute. In
1979, E10 was introduced into commerce through a
Subsection 7545(f)(4) waiver. See Fuels and Fuel Additives: Gasohol; Marketability, 44 Fed. Reg. 20,777
(Apr. 6, 1979). EPA extended the 1979 waiver in 1982
to fuel containing 0-to-10% ethanol upon finding that
the “emissions effect of blends containing up to 10 percent anhydrous ethanol in unleaded gasoline would be
the same or less than that for the full 10 percent ethanol blend.” Fuels; Blends of Ethanol in Unleaded Gasoline, 47 Fed. Reg. 14,596, 14,596 (Apr. 5, 1982). Over
the next thirty years, use of E10 increased. By 2013,
E10 accounted for nearly all gasoline sold in the United
States. E15 Rule, 84 Fed. Reg. at 26,986.
In 2010 and 2011, EPA determined that E15 would
not impair certain motor vehicles’ emission controls under Subsection 7545(f)(4) and by waivers approved the
use of E15 in light-duty motor vehicles made after 2000.
See Partial Grant of Clean Air Act Waiver Application
Submitted by Growth Energy To Increase the Allowable Ethanol Content of Gasoline to 15 Percent, 76 Fed.
Reg. 4,662 (Jan. 26, 2011); Partial Grant and Partial
Denial of Clean Air Act Waiver Application Submitted
by Growth Energy To Increase the Allowable Ethanol
Content of Gasoline to 15 Percent, 75 Fed. Reg. 68,094
(Nov. 4, 2010); see also Grocery Mfrs. Ass’n v. EPA, 693
F.3d 169, 173 (D.C. Cir. 2012). These waivers did not
include the 1-psi waiver that enabled the summer sale
of E10, but instead required E15 to meet the generally
applicable 9-psi limit. EPA rejected requests to apply
the 1-psi waiver to E15, interpreting Subsection
7545(h)(4) as “limit[ed] ... to fuel blends containing gaso-

6a
line and 9–10 vol% ethanol.” Regulation To Mitigate
the Misfueling of Vehicles and Engines With Gasoline
Containing Greater Than Ten Volume Percent Ethanol
and Modifications to the Reformulated and Conventional Gasoline Programs, 76 Fed. Reg. 44,406, 44,433
(July 25, 2011) (“Misfueling Rule”). Because it is costprohibitive to produce ethanol blends with volatility not
exceeding 9.0 psi, EPA’s waiver condition prevented
the sale of E15 during the summer. See E15 Rule, 84
Fed. Reg. at 26,990, 26,993.
In October 2018, the President directed EPA to initiate a rulemaking to consider modifying the volatility
limits for E15 so it could “be sold year round rather
than just eight months of the year.” White House, Fact
Sheet: President Donald J. Trump Is Expanding Waivers for E15 and Increasing Transparency in the RIN
Market (Oct. 11, 2018). Section II of the E15 Rule,
which EPA issued in June 2019, extended the 1-psi
waiver to fuel blends with an ethanol concentration of
“at least 9% and no more than 15% (by volume) of the
gasoline.” E15 Rule, 84 Fed. Reg. at 27,021 (codified at
40 C.F.R. § 80.27(d)(2), now codified in § 1090.215(b)).
This change rested on two subsidiary determinations.
First, EPA “adopt[ed] a new interpretation” of Subsection 7545(h)(4), id. at 26,991, as simply “establishing a
lower limit, or floor, on the minimum ethanol content
for a 1-psi waiver,” id. at 26,992. Under its revised interpretation, the “lack[] [of] modifiers for the term ‘containing’” in Subsection 7545(h)(4), “in contrast to the
other statutory provisions” in Section 7545, renders the
term “ambiguous and provides room for … interpretive
and policy choices.” Id. EPA concluded it was “permissible … to interpret ‘containing’ to mean ‘containing
at least’” such that “all fuels which contain at least 10
percent ethanol may receive the 1-psi waiver, including

7a
blends that contain more than 10 percent ethanol.” Id.
This new interpretation, EPA noted, advanced the
statutory purpose of promoting the use of ethanol fuel.
Id. at 26,993. Second, EPA determined that E15 is
“substantially similar” to E10, a fuel used to certify vehicle emissions control systems, when used in lightduty motor vehicles made after 2000. Because E15
thereby satisfied the requirements of Subsection
7545(f)(1)(A), as well as Subsection 7545(h)(4) as EPA
reinterpreted it, E15 could be sold at 10.0 psi notwithstanding the volatility conditions in the 2010–2011
waivers. Id.
Three sets of petitioners challenge Section II of the
E15 Rule. Petroleum Petitioners contend that Subsection 7545(h)(4)’s 1-psi waiver does not apply to blends
with more than 10% ethanol and that EPA’s reinterpretation contradicts the statutory text, context, and
history. They further contend that EPA lacks authority to make a partial substantial-similarity determination pursuant to Subsection 7545(f)(1)(A), and that its
finding that E15 is substantially similar to E10 is arbitrary and capricious. Ethanol Petitioners also challenge
EPA’s
reinterpretation
of
Subsection
7545(f)(1)(A), but they maintain that the E15 Rule does
not go far enough. They assert that fuel blends with
more than 15% ethanol are substantially similar to E10,
obligating EPA to extend the 1-psi waiver to those
higher-ethanol blends. The Small Retailers Coalition
challenge is directed to EPA’s certification that the
E15 Rule will not adversely affect small businesses.
The Coalition argues that certification was inconsistent
with the Regulatory Flexibility Act and irrational because small fuel retailers will be required to undertake
costly infrastructure upgrades to store and sell E15.

8a
II.
As a threshold matter, the court addresses whether
at least one of the petitioners has standing under Article III of the Constitution to obtain review of the E15
Rule. Steel Co. v. Citizens for a Better Env’t, 523 U.S.
83, 101–02 (1998); Carbon Sequestration Council v.
EPA, 787 F.3d 1129, 1137 (D.C. Cir. 2015). If one of the
Petroleum Petitioners has standing, and if their contention that the E15 Rule is contrary to the plain text, context, and history of the Clean Air Act is persuasive,
then, absent the severability of Section II, the court
must vacate the E15 Rule.
Article III standing requires that a petitioner show
an “injury in fact,” a “causal connection” between the
injury and the challenged conduct, and a likelihood
“that the injury will be redressed by a favorable decision.” Lujan v. Defs. Of Wildlife, 504 U.S. 555, 560–61
(1992) (internal quotation marks omitted). The party
invoking the court’s jurisdiction bears the burden of
demonstrating a “substantial probability” of standing.
Sierra Club v. EPA, 292 F.3d 895, 899 (D.C. Cir. 2002)
(quoting Am. Petro. Inst. v. EPA, 216 F.3d 50, 63 (D.C.
Cir. 2000)). When standing is not self-evident—for example, as may be true if a petitioner is not directly regulated by the challenged rule—“the petitioner must
supplement the record to the extent necessary to explain and substantiate its entitlement to judicial review.” Id. at 900. An association may bring suit on behalf of its members “only if (1) at least one of its members would have standing to sue in [its] own right; (2)
the interest it seeks to protect is germane to its purpose; and (3) neither the claim asserted nor the relief
requested requires the member to participate in the
lawsuit.” Chesapeake Climate Action Network v. EPA,
952 F.3d 310, 318 (D.C. Cir. 2020) (quoting Am. Truck-

9a
ing Ass’ns v. Fed. Motor Carrier Safety Admin., 724
F.3d 243, 247 (D.C. Cir. 2013)).
One of the Petroleum Petitioners, American Fuel &
Petrochemical Manufacturers (“AFPM”), a trade association that “represents most refiners in the United
States,” Susan W. Grissom Decl. ¶ 2, has standing.
Two of its members, Motiva Enterprises LLC and Sinclair Oil Corporation, could each assert a justiciable
claim in its own right. Motiva and Sinclair assert injuries under the doctrine of competitor standing, which
recognizes that “economic actors ‘suffer constitutional
injury in fact when agencies lift regulatory restrictions
on their competitors or otherwise allow increased competition.’” Nat’l Biodiesel Bd. v. EPA, 843 F.3d 1010,
1015 (D.C. Cir. 2016) (quoting La. Energy & Power
Auth. v. FERC, 141 F.3d 364, 367 (D.C. Cir. 1998)). To
demonstrate competitor injury, a petitioner must
“show an actual or imminent increase in competition.”
Sherley v. Sebelius, 610 F.3d 69, 73 (D.C. Cir. 2010).
With injury established, the rest of the standing inquiry ordinarily falls into place: the increased competition is caused by the agency’s action and redressed by
restoring the regulatory status quo ante. See Wash.
All. of Tech. Workers v. U.S. Dep’t of Homeland Sec.,
892 F.3d 332, 341–42 (D.C. Cir. 2018); Nat’l Biodiesel
Bd., 843 F.3d at 1015.
Motiva and Sinclair produce petroleum products.
William Spurgeon Decl. ¶ 4; Adam G. Suess Decl. ¶ 1.
They compete with biofuel producers in the motor vehicle fuel market because ethanol is a substitute for the
traditional petroleum-based components of gasoline.
Spurgeon Decl. ¶ 25. By removing the otherwise applicable 9-psi volatility limit, the E15 Rule is substantially
likely to increase demand for E15. Suess Decl. ¶¶ 10–
11; see Nat’l Biodiesel Bd., 843 F.3d at 1015–16; Delta

10a
Const. Co. v. EPA, 783 F.3d 1291, 1299–1300 (D.C. Cir.
2015). EPA, upon extrapolating from monthly E15 retail sales data collected in Minnesota between 2015 and
2018, has estimated that “annual per-station sales of
E15 would have been about 16% higher had the 1psi
waiver been available for E15.” Resp. to Comments at
97. Increased production of E15 is, in turn, likely to
cause a significant rise in demand for ethanol and a significant reduction in demand for petroleum. Spurgeon
Decl. ¶ 25; Suess Decl. ¶¶ 12–13. Because vacatur of
the E15 Rule would redress these injuries, Motiva and
Sinclair have competitor standing. See Nat’l Biodiesel
Bd., 843 F.3d at 1015.
The other two elements of associational standing
are also satisfied. The interests that AFPM seeks to
protect are germane to its purpose; it has an “obvious
interest in challenging” a rule detrimental to the financial wellbeing of its members. Am. Trucking Ass’ns,
724 F.3d at 247. Neither the claims asserted regarding
EPA’s statutory violations, nor the relief sought by vacatur requires the participation of AFPM’s members.
See Ctr. for Sustainable Econ. v. Jewell, 779 F.3d 588,
597 (D.C. Cir. 2015). Because AFPM has shown a substantial probability of associational standing, the court
need not consider other bases offered by Petroleum Petitioners to establish Article III standing. Ctr. for Biological Diversity v. EPA, 861 F.3d 174, 182 (D.C. Cir.
2017).
III.
Turning to the merits, Petroleum Petitioners contend that the E15 Rule is contrary to the plain meaning
of Subsection 7545(h)(4). They maintain that the statute is clear on its face: the phrase “fuel blends containing gasoline and 10 percent … ethanol” refers to E10

11a
and E10 only. It follows, they conclude, that Subsection 7545(h)(4) does not authorize EPA to alter the volatility limits for E15. EPA responds that the term
“containing” is sufficiently ambiguous to render its revised interpretation reasonable and deserving of deference by the court. Intervenors Growth Energy, National Corn Growers Association, and Renewable Fuels
Association (“Biofuel Intervenors”) agree with Petroleum Petitioners that the statute is unambiguous, but
they contend that Subsection 7545(h)(4) unambiguously
applies to all fuel blends with at least 10% ethanol.
The court’s review of EPA’s interpretation of the
Clean Air Act proceeds under the two-step framework
announced in Chevron, U.S.A., Inc. v. Natural Resources Defense Council, Inc., 467 U.S. 837 (1984). See
Michigan v. EPA, 576 U.S. 743, 751 (2015); Am. Fuel &
Petro. Mfrs. v. EPA, 937 F.3d 559, 574 (D.C. Cir. 2019).
The court first asks “whether Congress has directly
spoken to the precise question at issue.” Chevron, 467
U.S. at 842. In answering that question, the court exhausts the “traditional tools of statutory construction,”
considering the provision’s text, context, legislative
history, and purpose. Id. at 843 n.9; see U.S. Sugar
Corp. v. EPA, 830 F.3d 579, 605 (D.C. Cir. 2016). When
Congress has written clearly, “that is the end of the
matter,” because the court and EPA “must give effect
to the unambiguously expressed intent of Congress.”
Chevron, 467 U.S. at 842–43. When “the statute is silent or ambiguous with respect to the specific issue,”
then the court will uphold EPA’s interpretation so long
as it “is based on a permissible construction of the statute.” Id. at 843.
Our interpretation of Subsection 7545(h)(4)
“begin[s] with the language employed by Congress and
the assumption that the ordinary meaning of that lan-

12a
guage accurately expresses the legislative purpose.”
Engine Mfrs. Ass’n v. S. Coast Air Quality Mgmt.
Dist., 541 U.S. 246, 252 (2004) (quoting Park ‘N Fly,
Inc. v. Dollar Park & Fly, Inc., 469 U.S. 189, 194
(1985)). The statutory directive is straightforward.
Subsection 7545(h)(4) authorizes EPA to grant a 1-psi
waiver to a particular type of fuel: “blends containing
gasoline and 10 percent denatured anhydrous ethanol.”
42 U.S.C. § 7545(h)(4). In other words, Subsection
7545(h)(4) refers to E10. This understanding accords
with the ordinary meaning of the word “contain” used
as a percentage. Consider a label that a bottle of wine
“contains 10% alcohol by volume.” No one would understand that number to be other than a literal statement of the actual amount of alcohol in a serving. By
contrast, the label would be misleading if the wine contained only 5% alcohol or 15% alcohol. Here the ordinary meaning of the phrase “containing gasoline and 10
percent … ethanol” specifies the relative amount of
ethanol in a unit of fuel, not the minimum or maximum
ends of an unspecified range. Confirming the ordinary
meaning of “containing,” the inclusion of the adjectives
“denatured” (ethyl alcohol, that is, undrinkable alcohol)
and “anhydrous” (alcohol that has had water removed
to a purity of 99% ethanol), Resp’t’s Br. 17 n.6, reads
like a scientific formula. A chemist or petroleum engineer would not read instructions directing the preparation of a solution containing “10 percent denatured anhydrous ethanol” to require the addition of anything
other than 10 percent denatured anhydrous ethanol,
and no more.
This understanding of “containing” comports with
contemporaneous dictionary definitions. When Subsection 7545(h)(4) was enacted in 1990, the word “contain”
was defined, as relevant, as “to have within,” “to hold,”

13a
or “to comprise” in a manner that “implies the actual
presence of a specific substance or quantity within
something.” WEBSTER’S NEW COLLEGIATE DICTIONARY 282 (9th ed. 1990); see also 3 THE OXFORD ENGLISH DICTIONARY 807 (2d ed. 1989). Applying those
definitions, Subsection 7545(h)(4) is best read to concern gasoline that “has within it” or “holds” a specific
quantity (10%) of a specific substance (ethanol). By its
plain terms, then, Subsection 7545(h)(4) applies to E10,
leaving no room for EPA to exempt E15 from the 9-psi
volatility limit prescribed in Subsection 7545(h)(1).
Statutory context reinforces the conclusion that
Congress intended Subsection 7545(h)(4) to regulate
E10. Numerous provisions of the Clean Air Act enacted contemporaneously with Subsection 7545(h) in the
1990 Amendments, Pub. L. No. 101-549, 104 Stat. 2399,
have percentages with modifiers. Sometimes the modifier establishes a minimum allowable amount. For example, EPA is directed to promulgate regulations requiring certain urban buses to use “low-polluting fuels,”
42 U.S.C. § 7554(c)(2)(A), including methanol, which is
defined as a blend containing “at least 85 percent methanol,” id. § 7554(f)(2) (emphasis added). The 1990
Amendments also require that gasoline “contain not
less than 2.7 percent oxygen” by weight during the
winter months in areas that do not meet the national
ambient air quality standards for carbon monoxide. Id.
§ 7545(m)(2) (emphasis added). Other times the modifier imposes an upper limit. Addressing misfueling,
Congress prohibited any person from knowingly introducing into commerce diesel fuel that “contains a concentration of sulfur in excess of 0.05 percent (by
weight).” Id. § 7545(g)(2) (emphasis added). And in
Subsection 7545(h)(1), Congress instructed EPA to
“promulgate regulations making it unlawful for any

14a
person during the high ozone season” to “introduce into
commerce gasoline with a Reid Vapor Pressure in excess of 9.0 pounds per square inch.” Id. § 7545(h)(1)
(emphasis added).
In contrast, Congress did not include any modifiers
in Subsection 7545(h)(4). Section 7545 itself illustrates
that Congress knew how to use modifiers to set upper
and lower limits. The absence of such a term in Subsection 7545(h)(4) may properly be understood as purposeful. See Barnhart v. Sigmon Coal Co., 534 U.S. 438, 452
(2002); New York v. EPA, 413 F.3d 3, 39–40 (D.C. Cir.
2005). Had Congress intended to exempt a range of
ethanol fuels from the 9-psi limit, it could have referred
to fuel containing “at least” or “not more than” 10%
ethanol, much as appeared in the House version of the
1-psi waiver. See H.R. 3030, 101st Cong. § 214 (1989).
The reference to E10 without modifiers suggests that
Congress intended Subsection 7545(h)(4) to apply to
E10.
The statutory history points in the same direction.
EPA had regulated fuel volatility before Subsection
7545(h)(4) was enacted. In particular, the year before
the 1990 Amendments were enacted, EPA had imposed
seasonal, state-specific volatility limits on gasoline and
granted ethanol fuels a 1-psi waiver, provided the fuel
“contain at least 9% ethanol” and its “maximum ethanol
content … not exceed any applicable waiver conditions”
granted pursuant to Subsection 7545(f)(4). Volatility
Regulations for Gasoline and Alcohol Blends Sold in
Calendar Years 1989 and Beyond, 54 Fed. Reg. 11,868,
11,885 (Mar. 22, 1989). Because only E10 had received
a waiver at that time, EPA’s exemption effectively applied only to fuels containing between 9 and 10 percent
ethanol. See E15 Rule, 84 Fed. Reg. at 26,988. The following year, when Congress enacted Subsection

15a
7545(h), it retained EPA’s general framework for regulating fuel volatility, including granting ethanol fuels a
1-psi allowance. But Congress rejected EPA’s openended approach to the 1-psi waiver, declining to codify
the “at least” modifier and flexible upper limit in EPA’s
1989 Rule, instead limiting Subsection 7545(h)(4) to
E10.
Other legislative actions by Congress around the
same time that it enacted the 1990 Amendments are to
the same effect. Ten days before enacting the 1990
Amendments, Congress raised the tax imposed on motor vehicle fuels as part of the High Way Trust Fund.
Omnibus Budget Reconciliation Act of 1990, Pub. L.
No. 101-508, § 11211(a)(2), 104 Stat. 1388–423 (1990). A
lower tax was imposed on “any mixture at least 10 percent of which is alcohol … if any portion of such alcohol
is ethanol.” Id. § 11211(a)(5)(F), 104 Stat. 1388–424
(emphasis added). This legislation further underscores
that Congress’ omission of a modifier in Subsection
7545(h)(4) was deliberate.
Indeed, EPA itself has previously credited Subsection 7545(h)’s legislative history as evidence that it
lacked authority to extend the 1-psi waiver to fuels
other than E10. In 1991, when implementing Subsection 7545(h)(4), EPA stated that “the legislative history
indicates that Congress envisioned continuation of the 9
to 10 percent requirement” set forth in EPA’s 1989
Rule. Regulation of Fuels and Fuel Additives: Standards for Gasoline Volatility; and Control of Air Pollution from New Motor Vehicles and New Motor Vehicle
Engines: Standards for Particulate Emissions from
Urban Buses, 56 Fed. Reg. 24,242, 24,245 (May 29,
1991). And in adopting regulations in 2011 to prevent
misfueling, EPA pointed to Subsection 7545(h)(4)’s
“legislative history [as] support[ing] EPA’s interpreta-

16a
tion … that the 1 psi waiver only applies to gasoline
blends containing 9–10 vol% ethanol.” Misfueling Rule,
76 Fed. Reg. at 44,434.
The defenses of EPA’s new interpretation of Subsection 7545(h)(4) in the E15 Rule are unpersuasive.
EPA and Biofuel Intervenors maintain that the statute
is ambiguous inasmuch as no party challenges EPA’s
longstanding view that the phrase “containing … 10
percent,” in Subsection 7545(h)(4) “includes [blends
with] as little as 9 percent” ethanol. E15 Rule, 84 Fed.
Reg. at 26,992 n.90. But recognizing some compliance
margin associated with Subsection 7545(h)(4)’s “10 percent” does not support interpreting this provision as
though it applied to blends containing “at least 10 percent” ethanol. See City of Arlington v. FCC, 569 U.S.
290, 307 (2013). EPA and Biofuel Intervenors also
maintain that Subsection 7545(h)(4) can be read as
specifying the minimum ethanol content eligible for the
1-psi waiver because the word “containing” is frequently understood to implicitly mean “containing at least.”
Resp’t’s Br. 40; Biofuel Intervenors’ Br. 17–18. As an
example, EPA states that a physician’s diagnosis that a
“patient’s blood must ‘contain 10% white blood cells’” to
repel infections “clearly does not mean exactly 10.0%
white blood cells” but rather “at least 10% white blood
cells.” Resp’t’s Br. 40. Yet the problem with this argument is that “the sort of ambiguity giving rise to
Chevron deference is a creature not of definitional possibilities, but of statutory context.” New York v. EPA,
443 F.3d 880, 884 (D.C. Cir. 2006) (internal quotation
marks omitted) (quoting Am. Bar Ass’n v. FTC, 430
F.3d 457, 469 (D.C. Cir. 2005)). Examples from other
settings are unlikely to undermine contextual evidence
of textual meaning in a complex regulatory regime de-

17a
signed to reduce air pollution where the unmodified
term “containing” is used with a percentage.
As to legislative history, EPA and Biofuel Intervenors point out that Congress considered but ultimately
rejected the House version of Subsection 7545(h)(4),
which provided that “the Administrator may permit
gasoline containing at least 9 but not more than 10 per
centum ethanol (by volume) to exceed the applicable
Reid vapor pressure requirements by up to 1.0 psi.”
H.R. 3030, 101st Cong. § 214 (as introduced, July 27,
1989) (emphasis added). They maintain that Congress’
decision not to adopt the House’s modifier of “not more
than” demonstrates there was no intention to limit the
1-psi waiver to E10. See Resp’t’s Br. 35–37; Biofuel Intervenors’ Br. 22–23. This account of the legislative
history is meaningfully incomplete. Congress was
faced with at least three competing versions of the fuel
volatility waiver. The bill introduced in the House limited the 1-psi waiver to fuel containing “not more than”
10% ethanol. H.R. 3030, § 214. The House bill reported
out of Committee used different phrasing, stating that
“the Administrator shall permit a 1.0 pound per square
inch (psi) tolerance level for gasoline containing at least
10 percent ethanol.” H.R. 3030, 101st Cong. § 216 (as
reported by H. Comm. on Public Works and Transp.,
May 21, 1990) (emphasis added). Congress adopted neither of those versions, instead adopting the Senate’s
phrasing nearly exactly as introduced, which provided
that only “fuel blends containing gasoline and 10 per
centum denatured anhydrous ethanol” would receive
the 1-psi waiver. S. 1360, 101st Cong. § 214 (as introduced, Sept. 14, 1989); see also Pub. L. No. 101-549,
§ 216, 104 Stat. 2399, 2490. The legislative history is
silent on why Congress rejected each House formulation and instead adopted the Senate version. This am-

18a
biguous history hardly suffices to overcome the plain
text, for courts “do not resort to legislative history to
cloud a statutory text that is clear.” Ratzlaf v. United
States, 510 U.S. 135, 147–48 (1994).
Lastly, EPA and Biofuel Intervenors maintain that
confining Subsection 7545(h)(4) to E10 is contrary to its
“ethanol-promoting purpose.” Biofuel Intervenors’ Br.
22; see Resp’t’s Br. 41. Perhaps so, in one respect. Yet
Subsection 7545(h) need not be understood to serve one
purpose at all costs. See Freeman v. Quicken Loans,
Inc., 566 U.S. 624, 637 (2012); cf. Ams. for Clean Energy v. EPA, 864 F.3d 691, 714 (D.C. Cir. 2017). A Senate
Committee Report on the 1990 Amendments highlights
that Congress was balancing multiple interests. As
EPA and Biofuel Intervenors maintain, scientific evidence available to Congress at the time of Subsection
7545(h)’s enactment shows that increasing the ethanol
content in a fuel blend beyond 10% reduces the blend’s
volatility. See, e.g., Robert L. Furey, Volatility Characteristics of Gasoline-Alcohol and Gasoline-Ether
Fuel Blends 23 (1985). But the record also reflects
congressional attention to wide-ranging economic, energy-security, and geopolitical implications of authorizing such blends. See S. Rep. No. 101-228, at 110 (1989).
In limiting the 1-psi allowance to blends “containing 10
percent ethanol,” Congress balanced those interests.
Subsection 7545(h)(4) thus reflects a compromise, not
simply a desire to maximize ethanol production at all
costs.
Because the text, structure, and legislative history
of Subsection 7545(h)(4) foreclose EPA’s application of
the 1-psi waiver to E15, the court must determine
whether that aspect of the E15 Rule is severable. Severability “depends on the issuing agency’s intent,”
North Carolina v. FERC, 730 F.2d 790, 796 (D.C. Cir.

19a
1984), and severance “is improper if there is substantial
doubt that the agency would have adopted the severed
portion on its own,” New Jersey v. EPA, 517 F.3d 574,
584 (D.C. Cir. 2008) (internal quotation marks omitted)
(quoting Davis Cty. Solid Waste Mgmt. v. EPA, 108
F.3d 1454, 1459 (D.C. Cir. 1997)). The court need not
reach the petitioners’ challenges to the E15 Rule’s interpretation of Subsection 7545(f)(1). EPA stated in
the preamble that its “substantial-similarity” finding
and interpretation of Subsection 7545(h)(4) in Section II
“establish a single, unified program that allows the introduction into commerce of E15 at 10.0 psi RVP during the summer driving season,” and that it “d[id] not
intend for any of these individual actions to be severable.” E15 Rule, 84 Fed. Reg. at 26,983. In contrast,
EPA stated that Section II was “severable from” Section III, addressing the RIN market, “as these are two
separate actions, each of which operates independently
from the other.” Id.
Accordingly, the court will sever and vacate Section II of the E15 Rule and dismiss the remaining petitions as moot.

21a
APPENDIX B
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-1124
September Term, 2021
Consolidated with 19-1159, 19-1160, 19-1162
EPA-84FR26980
AMERICAN FUEL & PETROCHEMICAL
MANUFACTURERS,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY,
Respondent,
GROWTH ENERGY, ET AL.,
Intervenors.
Filed On: September 9, 2021
BEFORE: Rogers, Pillard, and Wilkins, Circuit Judges
ORDER
Upon consideration of the petition of intervenors
Growth Energy, National Corn Growers Association,
and Renewable Fuels Association for panel rehearing
filed on August 16, 2021, it is
ORDERED that the petition be denied.

22a
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Anya Karaman
Deputy Clerk

23a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE DISTRICT OF COLUMBIA CIRCUIT
No. 19-1124
September Term, 2021
Consolidated with 19-1159, 19-1160, 19-1162
EPA-84FR26980
AMERICAN FUEL & PETROCHEMICAL
MANUFACTURERS,
Petitioner,
v.
ENVIRONMENTAL PROTECTION AGENCY,
Respondent,
GROWTH ENERGY, ET AL.,
Intervenors.
Filed On: September 9, 2021
BEFORE: Srinivasan, Chief Judge, and Henderson,
Rogers, Tatel, Millett, Pillard, Wilkins, Katsas, Rao*,
Walker, and Jackson, Circuit Judges
ORDER
Upon consideration of the petition of intervenors
Growth Energy, National Corn Growers Association,
and Renewable Fuels Association for rehearing en
*

Circuit Judge Rao did not participate in this matter.

24a
banc, and the absence of a request by any member of
the court for a vote, it is
ORDERED that the petition be denied.
Per Curiam
FOR THE COURT:
Mark J. Langer, Clerk
BY: /s/
Anya Karaman
Deputy Clerk

25a
APPENDIX D
RELEVANT STATUTORY AND
REGULATORY PROVISIONS
42 U.S.C. § 7545
§ 7545. Regulation of fuels
*

*

*

(c) Offending fuels and fuel additives; control;
prohibition
(1) The Administrator may, from time to time on
the basis of information obtained under subsection (b)
of this section or other information available to him, by
regulation, control or prohibit the manufacture, introduction into commerce, offering for sale, or sale of any
fuel or fuel additive for use in a motor vehicle, motor
vehicle engine, or nonroad engine or nonroad vehicle if,
in the judgment of the Administrator, any fuel or fuel
additive or any emission product of such fuel or fuel additive causes, or contributes, to air pollution or water
pollution (including any degradation in the quality of
groundwater) that may reasonably be anticipated to
endanger the public health or welfare, or (B)2 if emission products of such fuel or fuel additive will impair to
a significant degree the performance of any emission
control device or system which is in general use, or
which the Administrator finds has been developed to a
point where in a reasonable time it would be in general
use were such regulation to be promulgated.

2

So in original. See Codifications and 2007 Amendments
notes set out under this section.

26a
(2)(A) No fuel, class of fuels, or fuel additive may be
controlled or prohibited by the Administrator pursuant
to clause (A) of paragraph (1)2 except after consideration of all relevant medical and scientific evidence
available to him, including consideration of other technologically or economically feasible means of achieving
emission standards under section 7521 of this title.
(B) No fuel or fuel additive may be controlled or
prohibited by the Administrator pursuant to clause (B)
of paragraph (1) except after consideration of available
scientific and economic data, including a cost benefit
analysis comparing emission control devices or systems
which are or will be in general use and require the proposed control or prohibition with emission control devices or systems which are or will be in general use and
do not require the proposed control or prohibition. On
request of a manufacturer of motor vehicles, motor vehicle engines, fuels, or fuel additives submitted within
10 days of notice of proposed rulemaking, the Administrator shall hold a public hearing and publish findings
with respect to any matter he is required to consider
under this subparagraph. Such findings shall be published at the time of promulgation of final regulations.
(C) No fuel or fuel additive may be prohibited by
the Administrator under paragraph (1) unless he finds,
and publishes such finding, that in his judgment such
prohibition will not cause the use of any other fuel or
fuel additive which will produce emissions which will
endanger the public health or welfare to the same or
greater degree than the use of the fuel or fuel additive
proposed to be prohibited.
2

So in original. See Codifications and 2007 Amendments
notes set out under this section.

27a
(3)(A) For the purpose of obtaining evidence and
data to carry out paragraph (2), the Administrator may
require the manufacturer of any motor vehicle or motor
vehicle engine to furnish any information which has
been developed concerning the emissions from motor
vehicles resulting from the use of any fuel or fuel additive, or the effect of such use on the performance of any
emission control device or system.
(B) In obtaining information under subparagraph
(A), section 7607(a) of this title (relating to subpenas)
shall be applicable.
(4)(A) Except as otherwise provided in subparagraph (B) or (C), no State (or political subdivision
thereof) may prescribe or attempt to enforce, for purposes of motor vehicle emission control, any control or
prohibition respecting any characteristic or component
of a fuel or fuel additive in a motor vehicle or motor vehicle engine—
(i) if the Administrator has found that no control or
prohibition of the characteristic or component of a
fuel or fuel additive under paragraph (1) is necessary and has published his finding in the Federal
Register, or
(ii) if the Administrator has prescribed under paragraph (1) a control or prohibition applicable to such
characteristic or component of a fuel or fuel additive, unless State prohibition or control is identical
to the prohibition or control prescribed by the Administrator.
(B) Any State for which application of section
7543(a) of this title has at any time been waived under
section 7543(b) of this title may at any time prescribe
and enforce, for the purpose of motor vehicle emission

28a
control, a control or prohibition respecting any fuel or
fuel additive.
(C)(i) A State may prescribe and enforce, for purposes of motor vehicle emission control, a control or
prohibition respecting the use of a fuel or fuel additive
in a motor vehicle or motor vehicle engine if an applicable implementation plan for such State under section
7410 of this title so provides. The Administrator may
approve such provision in an implementation plan, or
promulgate an implementation plan containing such a
provision, only if he finds that the State control or prohibition is necessary to achieve the national primary or
secondary ambient air quality standard which the plan
implements. The Administrator may find that a State
control or prohibition is necessary to achieve that
standard if no other measures that would bring about
timely attainment exist, or if other measures exist and
are technically possible to implement, but are unreasonable or impracticable. The Administrator may make
a finding of necessity under this subparagraph even if
the plan for the area does not contain an approved
demonstration of timely attainment.
(ii) The Administrator may temporarily waive a
control or prohibition respecting the use of a fuel or fuel
additive required or regulated by the Administrator
pursuant to subsection (c), (h), (i), (k), or (m) of this section or prescribed in an applicable implementation plan
under section 7410 of this title approved by the Administrator under clause (i) of this subparagraph if, after
consultation with, and concurrence by, the Secretary of
Energy, the Administrator determines that—
(I) extreme and unusual fuel or fuel additive supply
circumstances exist in a State or region of the Na-

29a
tion which prevent the distribution of an adequate
supply of the fuel or fuel additive to consumers;
(II) such extreme and unusual fuel and fuel additive
supply circumstances are the result of a natural
disaster, an Act of God, a pipeline or refinery
equipment failure, or another event that could not
reasonably have been foreseen or prevented and
not the lack of prudent planning on the part of the
suppliers of the fuel or fuel additive to such State
or region; and
(III) it is in the public interest to grant the waiver
(for example, when a waiver is necessary to meet
projected temporary shortfalls in the supply of the
fuel or fuel additive in a State or region of the Nation which cannot otherwise be compensated for).
(iii) If the Administrator makes the determinations
required under clause (ii), such a temporary extreme
and unusual fuel and fuel additive supply circumstances
waiver shall be permitted only if—
(I) the waiver applies to the smallest geographic
area necessary to address the extreme and unusual
fuel and fuel additive supply circumstances;
(II) the waiver is effective for a period of 20 calendar days or, if the Administrator determines that a
shorter waiver period is adequate, for the shortest
practicable time period necessary to permit the
correction of the extreme and unusual fuel and fuel
additive supply circumstances and to mitigate impact on air quality;
(III) the waiver permits a transitional period, the
exact duration of which shall be determined by the
Administrator (but which shall be for the shortest
practicable period), after the termination of the

30a
temporary waiver to permit wholesalers and retailers to blend down their wholesale and retail inventory;
(IV) the waiver applies to all persons in the motor
fuel distribution system; and
(V) the Administrator has given public notice to all
parties in the motor fuel distribution system, and
local and State regulators, in the State or region to
be covered by the waiver.
The term “motor fuel distribution system” as used in
this clause shall be defined by the Administrator
through rulemaking.
(iv) Within 180 days of August 8, 2005, the Administrator shall promulgate regulations to implement
clauses (ii) and (iii).
(v)3 Nothing in this subparagraph shall—
(I) limit or otherwise affect the application of
any other waiver authority of the Administrator
pursuant to this section or pursuant to a regulation
promulgated pursuant to this section; and
(II) subject any State or person to an enforcement action, penalties, or liability solely arising
from actions taken pursuant to the issuance of a
waiver under this subparagraph.
(v)3(I) The Administrator shall have no authority,
when considering a State implementation plan or a
State implementation plan revision, to approve under
this paragraph any fuel included in such plan or revision if the effect of such approval increases the total

3

So in original. Two cls. (v) enacted.

31a
number of fuels approved under this paragraph as of
September 1, 2004, in all State implementation plans.
(II) The Administrator, in consultation with the
Secretary of Energy, shall determine the total number
of fuels approved under this paragraph as of September
1, 2004, in all State implementation plans and shall publish a list of such fuels, including the States and Petroleum Administration for Defense District in which they
are used, in the Federal Register for public review and
comment no later than 90 days after August 8, 2005.
(III) The Administrator shall remove a fuel from
the list published under subclause (II) if a fuel ceases to
be included in a State implementation plan or if a fuel in
a State implementation plan is identical to a Federal
fuel formulation implemented by the Administrator,
but the Administrator shall not reduce the total number of fuels authorized under the list published under
subclause (II).
(IV) Subclause (I) shall not limit the Administrator’s authority to approve a control or prohibition respecting any new fuel under this paragraph in a State
implementation plan or revision to a State implementation plan if such new fuel—
(aa) completely replaces a fuel on the list published
under subclause (II); or
(bb) does not increase the total number of fuels on
the list published under subclause (II) as of September 1, 2004.
In the event that the total number of fuels on the list
published under subclause (II) at the time of the Administrator’s consideration of a control or prohibition
respecting a new fuel is lower than the total number of
fuels on such list as of September 1, 2004, the Adminis-

32a
trator may approve a control or prohibition respecting
a new fuel under this subclause if the Administrator,
after consultation with the Secretary of Energy, publishes in the Federal Register after notice and comment
a finding that, in the Administrator’s judgment, such
control or prohibition respecting a new fuel will not
cause fuel supply or distribution interruptions or have a
significant adverse impact on fuel producibility in the
affected area or contiguous areas.
(V) The Administrator shall have no authority under this paragraph, when considering any particular
State’s implementation plan or a revision to that State’s
implementation plan, to approve any fuel unless that
fuel was, as of the date of such consideration, approved
in at least one State implementation plan in the applicable Petroleum Administration for Defense District.
However, the Administrator may approve as part of a
State implementation plan or State implementation
plan revision a fuel with a summertime Reid Vapor
Pressure of 7.0 psi. In no event shall such approval by
the Administrator cause an increase in the total number of fuels on the list published under subclause (II).
(VI) Nothing in this clause shall be construed to
have any effect regarding any available authority of
States to require the use of any fuel additive registered
in accordance with subsection (b), including any fuel
additive registered in accordance with subsection (b)
after August 8, 2005.
*

*

*

(f) New fuels and fuel additives
(1)(A) Effective upon March 31, 1977, it shall be unlawful for any manufacturer of any fuel or fuel additive
to first introduce into commerce, or to increase the con-

33a
centration in use of, any fuel or fuel additive for general
use in light duty motor vehicles manufactured after
model year 1974 which is not substantially similar to
any fuel or fuel additive utilized in the certification of
any model year 1975, or subsequent model year, vehicle
or engine under section 7525 of this title.
(B) Effective upon November 15, 1990, it shall be
unlawful for any manufacturer of any fuel or fuel additive to first introduce into commerce, or to increase the
concentration in use of, any fuel or fuel additive for use
by any person in motor vehicles manufactured after
model year 1974 which is not substantially similar to
any fuel or fuel additive utilized in the certification of
any model year 1975, or subsequent model year, vehicle
or engine under section 7525 of this title.
(2) Effective November 30, 1977, it shall be unlawful for any manufacturer of any fuel to introduce into
commerce any gasoline which contains a concentration
of manganese in excess of .0625 grams per gallon of
fuel, except as otherwise provided pursuant to a waiver
under paragraph (4).
(3) Any manufacturer of any fuel or fuel additive
which prior to March 31, 1977, and after January 1,
1974, first introduced into commerce or increased the
concentration in use of a fuel or fuel additive that would
otherwise have been prohibited under paragraph (1)(A)
if introduced on or after March 31, 1977 shall, not later
than September 15, 1978, cease to distribute such fuel
or fuel additive in commerce. During the period beginning 180 days after August 7, 1977, and before September 15, 1978, the Administrator shall prohibit, or restrict the concentration of any fuel additive which he
determines will cause or contribute to the failure of an
emission control device or system (over the useful life

34a
of any vehicle in which such device or system is used) to
achieve compliance by the vehicle with the emission
standards with respect to which it has been certified
under section 7525 of this title.
(4) The Administrator, upon application of any
manufacturer of any fuel or fuel additive, may waive
the prohibitions established under paragraph (1) or (3)
of this subsection or the limitation specified in paragraph (2) of this subsection, if he determines that the
applicant has established that such fuel or fuel additive
or a specified concentration thereof, and the emission
products of such fuel or fuel additive or specified concentration thereof, will not cause or contribute to a failure of any emission control device or system (over the
useful life of the motor vehicle, motor vehicle engine,
nonroad engine or nonroad vehicle in which such device
or system is used) to achieve compliance by the vehicle
or engine with the emission standards with respect to
which it has been certified pursuant to sections 7525
and 7547(a) of this title. The Administrator shall take
final action to grant or deny an application submitted
under this paragraph, after public notice and comment,
within 270 days of the receipt of such an application.
(5) No action of the Administrator under this section may be stayed by any court pending judicial review of such action.
*

*

*

(h) Reid Vapor Pressure requirements
(1) Prohibition
Not later than 6 months after November 15,
1990, the Administrator shall promulgate regulations making it unlawful for any person during the
high ozone season (as defined by the Administra-

35a
tor) to sell, offer for sale, dispense, supply, offer for
supply, transport, or introduce into commerce gasoline with a Reid Vapor Pressure in excess of 9.0
pounds per square inch (psi). Such regulations
shall also establish more stringent Reid Vapor
Pressure standards in a nonattainment area as the
Administrator finds necessary to generally achieve
comparable evaporative emissions (on a per-vehicle
basis) in nonattainment areas, taking into consideration the enforceability of such standards, the need
of an area for emission control, and economic factors.
(2) Attainment areas
The regulations under this subsection shall not
make it unlawful for any person to sell, offer for
supply, transport, or introduce into commerce gasoline with a Reid Vapor Pressure of 9.0 pounds per
square inch (psi) or lower in any area designated
under section 7407 of this title as an attainment area. Notwithstanding the preceding sentence, the
Administrator may impose a Reid vapor pressure
requirement lower than 9.0 pounds per square inch
(psi) in any area, formerly an ozone nonattainment
area, which has been redesignated as an attainment
area.
(3) Effective date; enforcement
The regulations under this subsection shall
provide that the requirements of this subsection
shall take effect not later than the high ozone season for 1992, and shall include such provisions as
the Administrator determines are necessary to implement and enforce the requirements of this subsection.

36a
(4) Ethanol waiver
For fuel blends containing gasoline and 10 percent denatured anhydrous ethanol, the Reid vapor
pressure limitation under this subsection shall be
one pound per square inch (psi) greater than the
applicable Reid vapor pressure limitations established under paragraph (1); Provided, however,
That a distributor, blender, marketer, reseller, carrier, retailer, or wholesale purchaser-consumer
shall be deemed to be in full compliance with the
provisions of this subsection and the regulations
promulgated thereunder if it can demonstrate (by
showing receipt of a certification or other evidence
acceptable to the Administrator) that—
(A) the gasoline portion of the blend complies with the Reid vapor pressure limitations
promulgated pursuant to this subsection;
(B) the ethanol portion of the blend does
not exceed its waiver condition under subsection (f)(4); and
(C) no additional alcohol or other additive
has been added to increase the Reid Vapor
Pressure of the ethanol portion of the blend.
(5) Exclusion from ethanol waiver
(A) Promulgation of regulations
Upon notification, accompanied by supporting documentation, from the Governor of a
State that the Reid vapor pressure limitation
established by paragraph (4) will increase
emissions that contribute to air pollution in any
area in the State, the Administrator shall, by
regulation, apply, in lieu of the Reid vapor
pressure limitation established by paragraph

37a
(4), the Reid vapor pressure limitation established by paragraph (1) to all fuel blends containing gasoline and 10 percent denatured anhydrous ethanol that are sold, offered for sale,
dispensed, supplied, offered for supply, transported, or introduced into commerce in the area
during the high ozone season.
(B) Deadline for promulgation
The Administrator shall promulgate regulations under subparagraph (A) not later than
90 days after the date of receipt of a notification from a Governor under that subparagraph.
(C) Effective date
(i) In general
With respect to an area in
which the Governor submits a
under subparagraph (A), the
under that subparagraph shall
on the later of—

a State for
notification
regulations
take effect

(I) the first day of the first high
ozone season for the area that begins
after the date of receipt of the notification; or
(II) 1 year after the date of receipt
of the notification.
(ii) Extension of effective date based
on determination of insufficient supply
(I) In general
If, after receipt of a notification
with respect to an area from a Governor of a State under subparagraph (A),

38a
the Administrator determines, on the
Administrator’s own motion or on petition of any person and after consultation with the Secretary of Energy, that
the promulgation of regulations described in subparagraph (A) would result in an insufficient supply of gasoline
in the State, the Administrator, by
regulation—
(aa) shall extend the effective
date of the regulations under
clause (i) with respect to the area
for not more than 1 year; and
(bb) may renew the extension
under item (aa) for two additional
periods, each of which shall not exceed 1 year.
(II) Deadline for action on petitions
The Administrator shall act on any
petition submitted under subclause (I)
not later than 180 days after the date of
receipt of the petition.
(6) Areas covered
The provisions of this subsection shall apply only to the 48 contiguous States and the District of
Columbia.
*

*

(o) Renewable fuel program
(1) Definitions
In this section:

*

39a
(A) Additional renewable fuel
The term “additional renewable fuel”
means fuel that is produced from renewable biomass and that is used to replace or reduce the
quantity of fossil fuel present in home heating
oil or jet fuel.
(B) Advanced biofuel
(i) In general
The term “advanced biofuel” means
renewable fuel, other than ethanol derived
from corn starch, that has lifecycle greenhouse gas emissions, as determined by the
Administrator, after notice and opportunity for comment, that are at least 50 percent
less than baseline lifecycle greenhouse gas
emissions.
(ii) Inclusions
The types of fuels eligible for consideration as “advanced biofuel” may include
any of the following:
(I) Ethanol derived from cellulose,
hemicellulose, or lignin.
(II) Ethanol derived from sugar or
starch (other than corn starch).
(III) Ethanol derived from waste
material, including crop residue, other
vegetative waste material, animal
waste, and food waste and yard waste.
(IV) Biomass-based diesel.
(V) Biogas (including landfill gas
and sewage waste treatment gas) pro-

40a
duced through the conversion of organic matter from renewable biomass.
(VI) Butanol or other alcohols produced through the conversion of organic matter from renewable biomass.
(VII) Other fuel derived from cellulosic biomass.
(C) Baseline
emissions

lifecycle

greenhouse

gas

The term “baseline lifecycle greenhouse
gas emissions” means the average lifecycle
greenhouse gas emissions, as determined by
the Administrator, after notice and opportunity
for comment, for gasoline or diesel (whichever
is being replaced by the renewable fuel) sold or
distributed as transportation fuel in 2005.
(D) Biomass-based diesel
The term “biomass-based diesel” means
renewable fuel that is biodiesel as defined in
section 13220(f) of this title and that has lifecycle greenhouse gas emissions, as determined by
the Administrator, after notice and opportunity
for comment, that are at least 50 percent less
than the baseline lifecycle greenhouse gas
emissions. Notwithstanding the preceding sentence, renewable fuel derived from coprocessing biomass with a petroleum feedstock
shall be advanced biofuel if it meets the requirements of subparagraph (B), but is not biomass-based diesel.

41a
(E) Cellulosic biofuel
The term “cellulosic biofuel” means renewable fuel derived from any cellulose, hemicellulose, or lignin that is derived from renewable
biomass and that has lifecycle greenhouse gas
emissions, as determined by the Administrator,
that are at least 60 percent less than the baseline lifecycle greenhouse gas emissions.
(F) Conventional biofuel
The term “conventional biofuel” means renewable fuel that is ethanol derived from corn
starch.
(G) Greenhouse gas
The term “greenhouse gas” means carbon
dioxide, hydrofluorocarbons, methane, nitrous
oxide, perfluorocarbons,8 sulfur hexafluoride.
The Administrator may include any other anthropogenically-emitted gas that is determined
by the Administrator, after notice and comment, to contribute to global warming.
(H) Lifecycle greenhouse gas emissions
The term “lifecycle greenhouse gas emissions” means the aggregate quantity of greenhouse gas emissions (including direct emissions
and significant indirect emissions such as significant emissions from land use changes), as
determined by the Administrator, related to
the full fuel lifecycle, including all stages of fuel
and feedstock production and distribution, from
feedstock generation or extraction through the
distribution and delivery and use of the finished fuel to the ultimate consumer, where the

42a
mass values for all greenhouse gases are adjusted to account for their relative global
warming potential.
(I) Renewable biomass
The term “renewable biomass” means each
of the following:
(i) Planted crops and crop residue harvested from agricultural land cleared or
cultivated at any time prior to December
19, 2007, that is either actively managed or
fallow, and nonforested.
(ii) Planted trees and tree residue from
actively managed tree plantations on nonfederal9 land cleared at any time prior to
December 19, 2007, including land belonging to an Indian tribe or an Indian individual, that is held in trust by the United
States or subject to a restriction against alienation imposed by the United States.
(iii) Animal waste material and animal
byproducts.
(iv) Slash and pre-commercial thinnings that are from non-federal9 forestlands, including forestlands belonging to
an Indian tribe or an Indian individual, that
are held in trust by the United States or
subject to a restriction against alienation
imposed by the United States, but not forests or forestlands that are ecological
communities with a global or State ranking
of critically imperiled, imperiled, or rare
pursuant to a State Natural Heritage Pro-

43a
gram, old growth forest, or late successional forest.
(v) Biomass obtained from the immediate vicinity of buildings and other areas
regularly occupied by people, or of public
infrastructure, at risk from wildfire.
(vi) Algae.
(vii) Separated yard waste or food
waste, including recycled cooking and trap
grease.
(J) Renewable fuel
The term “renewable fuel” means fuel that
is produced from renewable biomass and that is
used to replace or reduce the quantity of fossil
fuel present in a transportation fuel.
(K) Small refinery
The term “small refinery” means a refinery
for which the average aggregate daily crude oil
throughput for a calendar year (as determined
by dividing the aggregate throughput for the
calendar year by the number of days in the calendar year) does not exceed 75,000 barrels.
(L) Transportation fuel
The term “transportation fuel” means fuel
for use in motor vehicles, motor vehicle engines, nonroad vehicles, or nonroad engines
(except for ocean-going vessels).

44a
(2) Renewable fuel program
(A) Regulations
(i) In general
Not later than 1 year after August 8,
2005, the Administrator shall promulgate
regulations to ensure that gasoline sold or
introduced into commerce in the United
States (except in noncontiguous States or
territories), on an annual average basis,
contains the applicable volume of renewable fuel determined in accordance with
subparagraph (B). Not later than 1 year
after December 19, 2007, the Administrator
shall revise the regulations under this paragraph to ensure that transportation fuel
sold or introduced into commerce in the
United States (except in noncontiguous
States or territories), on an annual average
basis, contains at least the applicable volume of renewable fuel, advanced biofuel,
cellulosic biofuel, and biomass-based diesel,
determined in accordance with subparagraph (B) and, in the case of any such renewable fuel produced from new facilities
that commence construction after December 19, 2007, achieves at least a 20 percent
reduction in lifecycle greenhouse gas emissions compared to baseline lifecycle greenhouse gas emissions.
(ii) Noncontiguous State opt-in
(I) In general
On the petition of a noncontiguous
State or territory, the Administrator

45a
may allow the renewable fuel program
established under this subsection to
apply in the noncontiguous State or
territory at the same time or any time
after the Administrator promulgates
regulations under this subparagraph.
(II) Other actions
In carrying out this clause, the
Administrator may—
(aa) issue or revise regulations
under this paragraph;
(bb) establish applicable percentages under paragraph (3);
(cc) provide for the generation
of credits under paragraph (5); and
(dd) take such other actions as
are necessary to allow for the application of the renewable fuels
program in a noncontiguous State
or territory.
(iii) Provisions of regulations
Regardless of the date of promulgation,
the regulations promulgated under clause
(i)—
(I) shall contain compliance provisions applicable to refineries, blenders,
distributors, and importers, as appropriate, to ensure that the requirements
of this paragraph are met; but
(II) shall not—

46a
(aa) restrict geographic areas
in which renewable fuel may be
used; or
(bb) impose any per-gallon obligation for the use of renewable
fuel.
(iv) Requirement in case of failure to
promulgate regulations
If the Administrator does not promulgate regulations under clause (i), the percentage of renewable fuel in gasoline sold
or dispensed to consumers in the United
States, on a volume basis, shall be 2.78 percent for calendar year 2006.
(B) Applicable volumes
(i) Calendar years after 2005
(I) Renewable fuel
For the purpose of subparagraph
(A), the applicable volume of renewable
fuel for the calendar years 2006
through 2022 shall be determined in accordance with the following table:

Calendar year:

Applicable
volume of
renewable
fuel (in
billions of
gallons):

2006 ...............................................................

4.0

2007 ...............................................................

4.7

47a
2008 ...............................................................

9.0

2009 ...............................................................

11.1

2010 ...............................................................

12.95

2011 ...............................................................

13.95

2012 ...............................................................

15.2

2013 ...............................................................

16.55

2014 ...............................................................

18.15

2015 ...............................................................

20.5

2016 ...............................................................

22.25

2017 ...............................................................

24.0

2018 ...............................................................

26.0

2019 ...............................................................

28.0

2020 ...............................................................

30.0

2021 ...............................................................

33.0

2022 ...............................................................

36.0

(II) Advanced biofuel
For the purpose of subparagraph
(A), of the volume of renewable fuel
required under subclause (I), the applicable volume of advanced biofuel for
the calendar years 2009 through 2022
shall be determined in accordance with
the following table:

48a
Applicable
volume of
advanced
biofuel (in
billions of
gallons):

Calendar year:
2009 ...............................................................

0.6

2010 ...............................................................

0.95

2011 ...............................................................

1.35

2012 ...............................................................

2.0

2013 ...............................................................

2.75

2014 ...............................................................

3.75

2015 ...............................................................

5.5

2016 ...............................................................

7.25

2017 ...............................................................

9.0

2018 ...............................................................

11.0

2019 ...............................................................

13.0

2020 ...............................................................

15.0

2021 ...............................................................

18.0

2022 ...............................................................

21.0

(III) Cellulosic biofuel
For the purpose of subparagraph
(A), of the volume of advanced biofuel
required under subclause (II), the applicable volume of cellulosic biofuel for
the calendar years 2010 through 2022
shall be determined in accordance with
the following table:

49a
Applicable
volume of
cellulosic
biofuel (in
billions of
gallons):

Calendar year:
2010 ...............................................................

0.1

2011 ...............................................................

0.25

2012 ...............................................................

0.5

2013 ...............................................................

1.0

2014 ...............................................................

1.75

2015 ...............................................................

3.0

2016 ...............................................................

4.25

2017 ...............................................................

5.5

2018 ...............................................................

7.0

2019 ...............................................................

8.5

2020 ...............................................................

10.5

2021 ...............................................................

13.5

2022 ...............................................................

16.0

(IV) Biomass-based diesel
For the purpose of subparagraph
(A), of the volume of advanced biofuel
required under subclause (II), the applicable volume of biomass-based diesel
for the calendar years 2009 through
2012 shall be determined in accordance
with the following table:

50a
Applicable
volume of
biomass
based diesel
(in billions of
gallons):

Calendar year:
2009 ...............................................................

0.5

2010 ...............................................................

0.65

2011 ...............................................................

0.80

2012 ...............................................................

1.0

(ii) Other calendar years
For the purposes of subparagraph (A),
the applicable volumes of each fuel specified in the tables in clause (i) for calendar
years after the calendar years specified in
the tables shall be determined by the Administrator, in coordination with the Secretary of Energy and the Secretary of Agriculture, based on a review of the implementation of the program during calendar
years specified in the tables, and an analysis of—
(I) the impact of the production
and use of renewable fuels on the environment, including on air quality, climate change, conversion of wetlands,
ecosystems, wildlife habitat, water
quality, and water supply;
(II) the impact of renewable fuels
on the energy security of the United
States;

51a
(III) the expected annual rate of
future commercial production of renewable fuels, including advanced biofuels in each category (cellulosic biofuel
and biomass-based diesel);
(IV) the impact of renewable fuels
on the infrastructure of the United
States, including deliverability of materials, goods, and products other than
renewable fuel, and the sufficiency of
infrastructure to deliver and use renewable fuel;
(V) the impact of the use of renewable fuels on the cost to consumers of
transportation fuel and on the cost to
transport goods; and
(VI) the impact of the use of renewable fuels on other factors, including job creation, the price and supply of
agricultural commodities, rural economic development, and food prices.
The Administrator shall promulgate rules
establishing the applicable volumes under
this clause no later than 14 months before
the first year for which such applicable volume will apply.
(iii) Applicable volume of advanced
biofuel
For the purpose of making the determinations in clause (ii), for each calendar
year, the applicable volume of advanced
biofuel shall be at least the same percent-

52a
age of the applicable volume of renewable
fuel as in calendar year 2022.
(iv) Applicable volume of cellulosic
biofuel
For the purpose of making the determinations in clause (ii), for each calendar
year, the applicable volume of cellulosic
biofuel established by the Administrator
shall be based on the assumption that the
Administrator will not need to issue a
waiver for such years under paragraph
(7)(D).
(v) Minimum applicable volume of biomass-based diesel
For the purpose of making the determinations in clause (ii), the applicable volume of biomass-based diesel shall not be
less than the applicable volume listed in
clause (i)(IV) for calendar year 2012.
(3) Applicable percentages
(A) Provision of estimate of volumes of
gasoline sales
Not later than October 31 of each of calendar years 2005 through 2021, the Administrator
of the Energy Information Administration shall
provide to the Administrator of the Environmental Protection Agency an estimate, with
respect to the following calendar year, of the
volumes of transportation fuel, biomass-based
diesel, and cellulosic biofuel projected to be sold
or introduced into commerce in the United
States.

53a
(B) Determination of applicable percentages
(i) In general
Not later than November 30 of each of
calendar years 2005 through 2021, based on
the estimate provided under subparagraph
(A), the Administrator of the Environmental Protection Agency shall determine and
publish in the Federal Register, with respect to the following calendar year, the
renewable fuel obligation that ensures that
the requirements of paragraph (2) are met.
(ii) Required elements
The renewable fuel obligation determined for a calendar year under clause (i)
shall—
(I) be applicable to refineries,
blenders, and importers, as appropriate;
(II) be expressed in terms of a volume percentage of transportation fuel
sold or introduced into commerce in the
United States; and
(III) subject to subparagraph
(C)(i), consist of a single applicable percentage that applies to all categories of
persons specified in subclause (I).
(C) Adjustments
In determining the applicable percentage
for a calendar year, the Administrator shall
make adjustments—

54a
(i) to prevent the imposition of redundant obligations on any person specified in
subparagraph (B)(ii)(I); and
(ii) to account for the use of renewable
fuel during the previous calendar year by
small refineries that are exempt under
paragraph (9).
(4) Modification of greenhouse gas reduction
percentages
(A) In general
The Administrator may, in the regulations
under the last sentence of paragraph (2)(A)(i),
adjust the 20 percent, 50 percent, and 60 percent reductions in lifecycle greenhouse gas
emissions specified in paragraphs (2)(A)(i) (relating to renewable fuel), (1)(D) (relating to biomass-based diesel), (1)(B)(i) (relating to advanced biofuel), and (1)(E) (relating to cellulosic biofuel) to a lower percentage. For the 50
and 60 percent reductions, the Administrator
may make such an adjustment only if he determines that generally such reduction is not
commercially feasible for fuels made using a
variety of feedstocks, technologies, and processes to meet the applicable reduction.
(B) Amount of adjustment
In promulgating regulations under this
paragraph, the specified 50 percent reduction
in greenhouse gas emissions from advanced
biofuel and in biomass-based diesel may not be
reduced below 40 percent. The specified 20
percent reduction in greenhouse gas emissions
from renewable fuel may not be reduced below

55a
10 percent, and the specified 60 percent reduction in greenhouse gas emissions from cellulosic
biofuel may not be reduced below 50 percent.
(C) Adjusted reduction levels
An adjustment under this paragraph to a
percent less than the specified 20 percent
greenhouse gas reduction for renewable fuel
shall be the minimum possible adjustment, and
the adjusted greenhouse gas reduction shall be
established by the Administrator at the maximum achievable level, taking cost in consideration, for natural gas fired corn-based ethanol
plants, allowing for the use of a variety of technologies and processes. An adjustment in the
50 or 60 percent greenhouse gas levels shall be
the minimum possible adjustment for the fuel
or fuels concerned, and the adjusted greenhouse gas reduction shall be established at the
maximum achievable level, taking cost in consideration, allowing for the use of a variety of
feedstocks, technologies, and processes.
(D) 5-year review
Whenever the Administrator makes any
adjustment under this paragraph, not later
than 5 years thereafter he shall review and revise (based upon the same criteria and standards as required for the initial adjustment) the
regulations establishing the adjusted level.
(E) Subsequent adjustments
After the Administrator has promulgated a
final rule under the last sentence of paragraph
(2)(A)(i) with respect to the method of determining lifecycle greenhouse gas emissions, ex-

56a
cept as provided in subparagraph (D), the Administrator may not adjust the percent greenhouse gas reduction levels unless he determines that there has been a significant change
in the analytical methodology used for determining the lifecycle greenhouse gas emissions.
If he makes such determination, he may adjust
the 20, 50, or 60 percent reduction levels
through rulemaking using the criteria and
standards set forth in this paragraph.
(F) Limit on upward adjustments
If, under subparagraph (D) or (E), the Administrator revises a percent level adjusted as
provided in subparagraphs (A), (B), and (C) to a
higher percent, such higher percent may not
exceed the applicable percent specified in paragraph (2)(A)(i), (1)(D), (1)(B)(i), or (1)(E).
(G) Applicability of adjustments
If the Administrator adjusts, or revises, a
percent level referred to in this paragraph or
makes a change in the analytical methodology
used for determining the lifecycle greenhouse
gas emissions, such adjustment, revision, or
change (or any combination thereof) shall only
apply to renewable fuel from new facilities that
commence construction after the effective date
of such adjustment, revision, or change.
(5) Credit program
(A) In general
The regulations promulgated under paragraph (2)(A) shall provide—

57a
(i) for the generation of an appropriate
amount of credits by any person that refines, blends, or imports gasoline that contains a quantity of renewable fuel that is
greater than the quantity required under
paragraph (2);
(ii) for the generation of an appropriate amount of credits for biodiesel; and
(iii) for the generation of credits by
small refineries in accordance with paragraph (9)(C).
(B) Use of credits
A person that generates credits under subparagraph (A) may use the credits, or transfer
all or a portion of the credits to another person,
for the purpose of complying with paragraph
(2).
(C) Duration of credits
A credit generated under this paragraph
shall be valid to show compliance for the 12
months as of the date of generation.
(D) Inability to generate or purchase sufficient credits
The regulations promulgated under paragraph (2)(A) shall include provisions allowing
any person that is unable to generate or purchase sufficient credits to meet the requirements of paragraph (2) to carry forward a renewable fuel deficit on condition that the person, in the calendar year following the year in
which the renewable fuel deficit is created—

58a
(i) achieves compliance with the renewable fuel requirement under paragraph
(2); and
(ii) generates or purchases additional
renewable fuel credits to offset the renewable fuel deficit of the previous year.
(E) Credits for additional renewable fuel
The Administrator may issue regulations
providing: (i) for the generation of an appropriate amount of credits by any person that refines, blends, or imports additional renewable
fuels specified by the Administrator; and (ii) for
the use of such credits by the generator, or the
transfer of all or a portion of the credits to another person, for the purpose of complying with
paragraph (2).
(6) Seasonal variations in renewable fuel use
(A) Study
For each of calendar years 2006 through
2012, the Administrator of the Energy Information Administration shall conduct a study of
renewable fuel blending to determine whether
there are excessive seasonal variations in the
use of renewable fuel.
(B) Regulation of excessive seasonal variations
If, for any calendar year, the Administrator
of the Energy Information Administration,
based on the study under subparagraph (A),
makes the determinations specified in subparagraph (C), the Administrator of the Environmental Protection Agency shall promulgate

59a
regulations to ensure that 25 percent or more
of the quantity of renewable fuel necessary to
meet the requirements of paragraph (2) is used
during each of the 2 periods specified in subparagraph (D) of each subsequent calendar
year.
(C) Determinations
The determinations referred to in subparagraph (B) are that—
(i) less than 25 percent of the quantity
of renewable fuel necessary to meet the requirements of paragraph (2) has been used
during 1 of the 2 periods specified in subparagraph (D) of the calendar year;
(ii) a pattern of excessive seasonal variation described in clause (i) will continue in
subsequent calendar years; and
(iii) promulgating regulations or other
requirements to impose a 25 percent or
more seasonal use of renewable fuels will
not prevent or interfere with the attainment of national ambient air quality standards or significantly increase the price of
motor fuels to the consumer.
(D) Periods
The 2 periods referred to in this paragraph
are—
(i) April through September; and
(ii) January through March and October through December.

60a
(E) Exclusion
Renewable fuel blended or consumed in
calendar year 2006 in a State that has received
a waiver under section 7543(b) of this title shall
not be included in the study under subparagraph (A).
(F) State exemption from seasonality requirements
Notwithstanding any other provision of
law, the seasonality requirement relating to
renewable fuel use established by this paragraph shall not apply to any State that has received a waiver under section 7543(b) of this title or any State dependent on refineries in such
State for gasoline supplies.
(7) Waivers
(A) In general
The Administrator, in consultation with the
Secretary of Agriculture and the Secretary of
Energy, may waive the requirements of paragraph (2) in whole or in part on petition by one
or more States, by any person subject to the
requirements of this subsection, or by the Administrator on his own motion by reducing the
national quantity of renewable fuel required
under paragraph (2)—
(i) based on a determination by the
Administrator, after public notice and opportunity for comment, that implementation of the requirement would severely
harm the economy or environment of a
State, a region, or the United States; or

61a
(ii) based on a determination by the
Administrator, after public notice and opportunity for comment, that there is an inadequate domestic supply.
(B) Petitions for waivers
The Administrator, in consultation with the
Secretary of Agriculture and the Secretary of
Energy, shall approve or disapprove a petition
for a waiver of the requirements of paragraph
(2) within 90 days after the date on which the
petition is received by the Administrator.
(C) Termination of waivers
A waiver granted under subparagraph (A)
shall terminate after 1 year, but may be renewed by the Administrator after consultation
with the Secretary of Agriculture and the Secretary of Energy.
(D) Cellulosic biofuel
(i) For any calendar year for which the projected volume of cellulosic biofuel production is
less than the minimum applicable volume established under paragraph (2)(B), as determined by the Administrator based on the estimate provided under paragraph (3)(A), not later than November 30 of the preceding calendar
year, the Administrator shall reduce the applicable volume of cellulosic biofuel required under paragraph (2)(B) to the projected volume
available during that calendar year. For any
calendar year in which the Administrator
makes such a reduction, the Administrator may
also reduce the applicable volume of renewable
fuel and advanced biofuels requirement estab-

62a
lished under paragraph (2)(B) by the same or a
lesser volume.
(ii) Whenever the Administrator reduces
the minimum cellulosic biofuel volume under
this subparagraph, the Administrator shall
make available for sale cellulosic biofuel credits
at the higher of $0.25 per gallon or the amount
by which $3.00 per gallon exceeds the average
wholesale price of a gallon of gasoline in the
United States. Such amounts shall be adjusted
for inflation by the Administrator for years after 2008.
(iii) Eighteen months after December 19,
2007, the Administrator shall promulgate regulations to govern the issuance of credits under
this subparagraph. The regulations shall set
forth the method for determining the exact
price of credits in the event of a waiver. The
price of such credits shall not be changed more
frequently than once each quarter. These regulations shall include such provisions, including
limiting the credits’ uses and useful life, as the
Administrator deems appropriate to assist
market liquidity and transparency, to provide
appropriate certainty for regulated entities and
renewable fuel producers, and to limit any potential misuse of cellulosic biofuel credits to reduce the use of other renewable fuels, and for
such other purposes as the Administrator determines will help achieve the goals of this subsection. The regulations shall limit the number
of cellulosic biofuel credits for any calendar
year to the minimum applicable volume (as reduced under this subparagraph) of cellulosic
biofuel for that year.

63a
(E) Biomass-based diesel
(i) Market evaluation
The Administrator, in consultation
with the Secretary of Energy and the Secretary of Agriculture, shall periodically
evaluate the impact of the biomass-based
diesel requirements established under this
paragraph on the price of diesel fuel.
(ii) Waiver
If the Administrator determines that
there is a significant renewable feedstock
disruption or other market circumstances
that would make the price of biomassbased diesel fuel increase significantly, the
Administrator, in consultation with the
Secretary of Energy and the Secretary of
Agriculture, shall issue an order to reduce,
for up to a 60-day period, the quantity of
biomass-based diesel required under subparagraph (A) by an appropriate quantity
that does not exceed 15 percent of the applicable annual requirement for biomassbased diesel. For any calendar year in
which the Administrator makes a reduction
under this subparagraph, the Administrator may also reduce the applicable volume
of renewable fuel and advanced biofuels
requirement established under paragraph
(2)(B) by the same or a lesser volume.
(iii) Extensions
If the Administrator determines that
the feedstock disruption or circumstances
described in clause (ii) is continuing beyond

64a
the 60-day period described in clause (ii) or
this clause, the Administrator, in consultation with the Secretary of Energy and the
Secretary of Agriculture, may issue an order to reduce, for up to an additional 60-day
period, the quantity of biomass-based diesel required under subparagraph (A) by an
appropriate quantity that does not exceed
an additional 15 percent of the applicable
annual requirement for biomass-based diesel.
(F) Modification of applicable volumes
For any of the tables in paragraph (2)(B), if
the Administrator waives—
(i) at least 20 percent of the applicable
volume requirement set forth in any such
table for 2 consecutive years; or
(ii) at least 50 percent of such volume
requirement for a single year,
the Administrator shall promulgate a rule
(within 1 year after issuing such waiver) that
modifies the applicable volumes set forth in the
table concerned for all years following the final
year to which the waiver applies, except that
no such modification in applicable volumes shall
be made for any year before 2016. In promulgating such a rule, the Administrator shall
comply with the processes, criteria, and standards set forth in paragraph (2)(B)(ii).

65a
(8) Study and waiver for initial year of program
(A) In general
Not later than 180 days after August 8,
2005, the Secretary of Energy shall conduct for
the Administrator a study assessing whether
the renewable fuel requirement under paragraph (2) will likely result in significant adverse impacts on consumers in 2006, on a national, regional, or State basis.
(B) Required evaluations
The study shall evaluate renewable fuel—
(i) supplies and prices;
(ii) blendstock supplies; and
(iii) supply and distribution system capabilities.
(C) Recommendations by the Secretary
Based on the results of the study, the Secretary of Energy shall make specific recommendations to the Administrator concerning
waiver of the requirements of paragraph (2), in
whole or in part, to prevent any adverse impacts described in subparagraph (A).
(D) Waiver
(i) In general
Not later than 270 days after August 8,
2005, the Administrator shall, if and to the
extent recommended by the Secretary of
Energy under subparagraph (C), waive, in
whole or in part, the renewable fuel re-

66a
quirement under paragraph (2) by reducing
the national quantity of renewable fuel required under paragraph (2) in calendar
year 2006.
(ii) No effect on waiver authority
Clause (i) does not limit the authority
of the Administrator to waive the requirements of paragraph (2) in whole, or in part,
under paragraph (7).
(9) Small refineries
(A) Temporary exemption
(i) In general
The requirements of paragraph (2)
shall not apply to small refineries until calendar year 2011.
(ii) Extension of exemption
(I) Study by Secretary of Energy
Not later than December 31, 2008,
the Secretary of Energy shall conduct
for the Administrator a study to determine whether compliance with the
requirements of paragraph (2) would
impose a disproportionate economic
hardship on small refineries.
(II) Extension of exemption
In the case of a small refinery that
the Secretary of Energy determines
under subclause (I) would be subject to
a disproportionate economic hardship if
required to comply with paragraph (2),
the Administrator shall extend the ex-

67a
emption under clause (i) for the small
refinery for a period of not less than 2
additional years.
(B) Petitions based on disproportionate
economic hardship
(i) Extension of exemption
A small refinery may at any time petition the Administrator for an extension of
the exemption under subparagraph (A) for
the reason of disproportionate economic
hardship.
(ii) Evaluation of petitions
In evaluating a petition under clause
(i), the Administrator, in consultation with
the Secretary of Energy, shall consider the
findings of the study under subparagraph
(A)(ii) and other economic factors.
(iii) Deadline for action on petitions
The Administrator shall act on any petition submitted by a small refinery for a
hardship exemption not later than 90 days
after the date of receipt of the petition.
(C) Credit program
If a small refinery notifies the Administrator that the small refinery waives the exemption under subparagraph (A), the regulations
promulgated under paragraph (2)(A) shall provide for the generation of credits by the small
refinery under paragraph (5) beginning in the
calendar year following the date of notification.

68a
(D) Opt-in for small refineries
A small refinery shall be subject to the requirements of paragraph (2) if the small refinery notifies the Administrator that the small
refinery waives the exemption under subparagraph (A).
(10) Ethanol market concentration analysis
(A) Analysis
(i) In general
Not later than 180 days after August 8,
2005, and annually thereafter, the Federal
Trade Commission shall perform a market
concentration analysis of the ethanol production industry using the HerfindahlHirschman Index to determine whether
there is sufficient competition among industry participants to avoid price-setting
and other anticompetitive behavior.
(ii) Scoring
For the purpose of scoring under
clause (i) using the Herfindahl-Hirschman
Index, all marketing arrangements among
industry participants shall be considered.
(B) Report
Not later than December 1, 2005, and annually thereafter, the Federal Trade Commission shall submit to Congress and the Administrator a report on the results of the market
concentration analysis performed under subparagraph (A)(i).

69a
(11) Periodic reviews
To allow for the appropriate adjustment of the
requirements described in subparagraph (B) of
paragraph (2), the Administrator shall conduct periodic reviews of—
(A) existing technologies;
(B) the feasibility of achieving compliance
with the requirements; and
(C) the impacts of the requirements described in subsection (a)(2)10 on each individual
and entity described in paragraph (2).
(12) Effect on other provisions
Nothing in this subsection, or regulations issued pursuant to this subsection, shall affect or be
construed to affect the regulatory status of carbon
dioxide or any other greenhouse gas, or to expand
or limit regulatory authority regarding carbon dioxide or any other greenhouse gas, for purposes of
other provisions (including section 7475) of this
chapter. The previous sentence shall not affect implementation and enforcement of this subsection.
*

*

*

70a
40 C.F.R. § 80.27
§ 80.27 Controls and prohibitions on gasoline volatility.
(a)(1) Prohibited activities in 1991. During the 1991
regulatory control periods, no refiner, importer, distributor, reseller, carrier, retailer or wholesale purchaser-consumer shall sell, offer for sale, dispense, supply, offer for supply, or transport gasoline whose Reid
vapor pressure exceeds the applicable standard. As
used in this section and § 80.28, “applicable standard”
means the standard listed in this paragraph for the geographical area and time period in which the gasoline is
intended to be dispensed to motor vehicles or, if such
area and time period cannot be determined, the standard listed in this paragraph that specifies the lowest
Reid vapor pressure for the year in which the gasoline
is being sampled. As used in this section and § 80.28,
“regulatory control periods” mean June 1 to September
15 for retail outlets and wholesale purchaser-consumers
and May 1 to September 15 for all other facilities.
*

*

*

(2) Prohibited activities in 1992 and beyond. During the 1992 and later high ozone seasons no person, including without limitation, no retailer or wholesale purchaser-consumer, and during the 1992 and later regulatory control periods, no refiner, importer, distributor,
reseller, or carrier shall sell, offer for sale, dispense,
supply, offer for supply, transport or introduce into
commerce gasoline whose Reid vapor pressure exceeds
the applicable standard. As used in this section and
§ 80.28, “applicable standard” means:

71a
(i) 9.0 psi for all designated volatility attainment
areas; and
(ii) The standard listed in this paragraph for the
state and time period in which the gasoline is intended
to be dispensed to motor vehicles for any designated
volatility nonattainment area within such State or, if
such area and time period cannot be determined, the
standard listed in this paragraph that specifies the lowest Reid vapor pressure for the year in which the gasoline is sampled. Designated volatility attainment and
designated volatility nonattainment areas and their exact boundaries are described in 40 CFR part 81, or such
part as shall later be designated for that purpose. As
used in this section and § 80.27, “high ozone season”
means the period from June 1 to September 15 of any
calendar year and “regulatory control period” means
the period from May 1 to September 15 of any calendar
year.
*

*

*

(b) Determination of compliance. Compliance with
the standards listed in paragraph (a) of this section
shall be determined by the use of the sampling methodologies specified in § 80.8 and the testing methodology
specified in § 80.46(c) until December 31, 2015, and
§ 80.47 beginning January 1, 2016.
(c) Liability. Liability for violations of paragraph
(a) of this section shall be determined according to the
provisions of § 80.28. Where the terms refiner, importer, distributor, reseller, carrier, ethanol blender, retailer, or wholesale purchaser-consumer are expressed in
the singular in § 80.28, these terms shall include the
plural.
(d) Special provisions for alcohol blends.

72a
(1) Any gasoline which meets the requirements of
paragraph (d)(2) of this section shall not be in violation
of this section if its Reid vapor pressure does not exceed the applicable standard in paragraph (a) of this
section by more than one pound per square inch (1.0
psi).
(2) In order to qualify for the special regulatory
treatment specified in paragraph (d)(1) of this section,
gasoline must contain denatured, anhydrous ethanol.
The concentration of the ethanol, excluding the required denaturing agent, must be at least 9% and no
more than 15% (by volume) of the gasoline. The ethanol content of the gasoline shall be determined by the
use of one of the testing methodologies specified in
§ 80.47. The maximum ethanol content shall not exceed
any applicable waiver conditions under section 211(f) of
the Clean Air Act.
(3) Each invoice, loading ticket, bill of lading, delivery ticket and other document which accompanies a
shipment of gasoline containing ethanol shall contain a
legible and conspicuous statement that the gasoline being shipped contains ethanol and the percentage concentration of ethanol.
(e) Testing exemptions. (1)(i) Any person may request a testing exemption by submitting an application
that includes all the information listed in paragraphs
(e)(3) through (6) of this section to the attention of
“Test Exemptions” to the address in § 80.10(a).
(ii) For purposes of this section, “testing exemption” means an exemption from the requirements of
§ 80.27(a) that is granted by the Administrator for the
purpose of research or emissions certification.

73a
(2)(i) In order for a testing exemption to be granted, the applicant must demonstrate the following:
(A) The proposed test program has a purpose that
constitutes an appropriate basis for exemption;
(B) The proposed test program necessitates the
granting of an exemption;
(C) The proposed test program exhibits reasonableness in scope; and
(D) The proposed test program exhibits a degree of
control consistent with the purpose of the program and
the Environmental Protection Agency’s (EPA’s) monitoring requirements.
(ii) Paragraphs (e)(3), (4), (5) and (6) of this section
describe what constitutes a sufficient demonstration for
each of the four elements in paragraphs (e)(2)(i)(A)
through (D) of this section.
(3) An appropriate purpose is limited to research or
emissions certification. The testing exemption application must include a concise statement of the purpose(s)
of the testing program.
(4) With respect to the necessity that an exemption
be granted, the applicant must demonstrate an inability
to achieve the stated purpose in a practicable manner,
during a period of the year in which the volatility regulations do not apply, or without performing or causing
to be performed one or more of the prohibited activities
under § 80.27(a). If any site of the proposed test program is located in an area that has been classified by
the Administrator as a nonattainment area for purposes of the ozone national ambient air quality standard,
the application must also demonstrate an inability to

74a
perform the test program in an area that is not so classified.
(5) With respect to reasonableness, a test program
must exhibit a duration of reasonable length, effect a
reasonable number of vehicles or engines, and utilize a
reasonable amount of high volatility fuel. In this regard, the testing exemption application must include:
(i) An estimate of the program’s duration;
(ii) An estimate of the maximum number of vehicles
or engines involved in the test program;
(iii) The time or mileage duration of the test program;
(iv) The range of volatility of the fuel (expressed in
Reid Vapor Pressure (RVP)) expected to be used in the
test program; and
(v) The quantity of fuel which exceeds the applicable standard that is expected to be used in the test program.
(6) With respect to control, a test program must be
capable of affording EPA a monitoring capability. At a
minimum, the testing exemption application must also
include:
(i) The technical nature of the test program;
(ii) The site(s) of the test program (including the
street address, city, county, State, and zip code);
(iii) The manner in which information on vehicles
and engines used in the test program will be recorded
and made available to the Administrator;
(iv) The manner in which results of the test program will be recorded and made available to the Administrator;

75a
(v) The manner in which information on the fuel
used in the test program (including RVP level(s), name,
address, telephone number, and contact person of supplier, quantity, date received from the supplier) will be
recorded and made available to the Administrator;
(vi) The manner in which the distribution pumps
will be labeled to insure proper use of the test fuel;
(vii) The name, address, telephone number and title
of the person(s) in the organization requesting a testing
exemption from whom further information on the request may be obtained; and
(viii) The name, address, telephone number and title of the person(s) in the organization requesting a
testing exemption who will be responsible for recording
and making available to the Administrator the information specified in paragraphs (e)(6)(iii), (iv), and (v) of
this section, and the location in which such information
will be maintained.
(7) A testing exemption will be granted by the Administrator upon a demonstration that the requirements of paragraphs (e)(2), (3), (4), (5) and (6) of this
section have been met. The testing exemption will be
granted in the form of a memorandum of exemption
signed by the applicant and the Administrator (or his
delegate), which shall include such terms and conditions
as the Administrator determines necessary to monitor
the exemption and to carry out the purposes of this section. Any violation of such a term or condition shall
cause the exemption to be void.

76a
40 C.F.R. § 80.28
§ 80.28 Liability for violations of gasoline volatility
controls and prohibitions.
(a) Violations at refineries or importer facilities.
Where a violation of the applicable standard set forth in
§ 80.27 is detected at a refinery that is not an ethanol
blending plant or at an importer’s facility, the refiner or
importer shall be deemed in violation.
(b) Violations at carrier facilities. Where a violation of the applicable standard set forth in § 80.27 is detected at a carrier’s facility, whether in a transport vehicle, in a storage facility, or elsewhere at the facility,
the following parties shall be deemed in violation:
(1) The carrier, except as provided in paragraph
(g)(1) of this section;
(2) The refiner (if he is not an ethanol blender) at
whose refinery the gasoline was produced or the importer at whose import facility the gasoline was imported, except as provided in paragraph (g)(2) of this
section;
(3) The ethanol blender (if any) at whose ethanol
blending plant the gasoline was produced, except as
provided in paragraph (g)(6) of this section; and
(4) The distributor and/or reseller, except as provided in paragraph (g)(3) of this section.
(c) Violations at branded distributor facilities, reseller facilities, or ethanol blending plants. Where a violation of the applicable standard set forth in § 80.27 is
detected at a distributor facility, a reseller facility, or
an ethanol blending plant which is operating under the
corporate, trade, or brand name of a gasoline refiner or

77a
any of its marketing subsidiaries, the following parties
shall be deemed in violation:
(1) The distributor or reseller, except as provided
in paragraph (g)(3) or (g)(8) of this section;
(2) The carrier (if any), if the carrier caused the
gasoline to violate the applicable standard;
(3) The refiner under whose corporate, trade, or
brand name (or that of any of its marketing subsidiaries) the distributor, reseller, or ethanol blender is operating, except as provided in paragraph (g)(4) of this
section; and
(4) The ethanol blender (if any) at whose ethanol
blending plant the gasoline was produced, except as
provided in paragraph (g)(6) or (g)(8) of this section.
(d) Violations at unbranded distributor facilities or
ethanol blending plants. Where a violation of the applicable standard set forth in § 80.27 is detected at a distributor facility or an ethanol blending plant not operating under a refiner’s corporate, trade, or brand name,
or that of any of its marketing subsidiaries, the following parties shall be deemed in violation:
(1) The distributor, except as provided in paragraph (g)(3) or (g)(8) of this section;
(2) The carrier (if any), if the carrier caused the
gasoline to violate the applicable standard;
(3) The refiner (if he is not an ethanol blender) at
whose refinery the gasoline was produced or the importer at whose import facility the gasoline was imported, except as provided in paragraph (g)(2) of this
section; and

78a
(4) The ethanol blender (if any) at whose ethanol
blending plant the gasoline was produced, except as
provided in paragraph (g)(6) or (g)(8) of this section.
(e) Violations at branded retail outlets or wholesale
purchaser-consumer facilities. Where a violation of the
applicable standard set forth in § 80.27 is detected at a
retail outlet or at a wholesale purchaser-consumer facility displaying the corporate, trade, or brand name of a
gasoline refiner or any of its marketing subsidiaries,
the following parties shall be deemed in violation:
(1) The retailer or wholesale purchaser-consumer,
except as provided in paragraph (g)(5) or (g)(8) of this
section;
(2) The distributor and/or reseller (if any), except
as provided in paragraph (g)(3) or (g)(8) of this section;
(3) The carrier (if any), if the carrier caused the
gasoline to violate the applicable standard;
(4) The refiner whose corporate, trade, or brand
name (or that of any of its marketing subsidiaries) is
displayed at the retail outlet or wholesale purchaserconsumer facility, except as provided in paragraph
(g)(4) of this section; and
(5) The ethanol blender (if any) at whose ethanol
blending plant the gasoline was produced, except as
provided in paragraph (g)(6) or (g)(8) of this section.
(f) Violations at unbranded retail outlets or wholesale purchaser-consumer facilities. Where a violation of
the applicable standard set forth in § 80.27 is detected
at a retail outlet or at a wholesale purchaser-consumer
facility not displaying the corporate, trade, or brand
name of a refiner or any of its marketing subsidiaries,
the following parties shall be deemed in violation:

79a
(1) The retailer or wholesale purchaser-consumer,
except as provided in paragraph (g)(5) or (g)(8) of this
section;
(2) The distributor (if any), except as provided in
paragraph (g)(3) or (g)(8) of this section;
(3) The carrier (if any), if the carrier caused the
gasoline to violate the applicable standard;
(4) The ethanol blender (if any) at whose ethanol
blending plant the gasoline was produced, except as
provided in paragraph (g)(6) of this section; and
(5) The refiner (if he is not an ethanol blender) at
whose refinery the gasoline was produced and/or the
importer at whose import facility the gasoline was imported, except as provided in paragraph (g)(2) of this
section.
(g) Defenses.(1) In any case in which a carrier would be
in violation under paragraph (b)(1) of this section, the
carrier shall not be deemed in violation if he can
demonstrate:
(i) That the violation was not caused by him or his
employee or agent; and
(ii) Evidence of an oversight program conducted by
the carrier, such as periodic sampling and testing of incoming gasoline, for monitoring the volatility of gasoline stored or transported by that carrier.
(iii) An oversight program under paragraph
(g)(1)(ii) of this section need not include periodic sampling and testing of gasoline in a tank truck operated by
a common carrier, but in lieu of such tank truck sampling and testing, the common carrier shall demonstrate evidence of an oversight program for monitoring
compliance with the volatility requirements of § 80.27

80a
relating to the transport or storage of gasoline by tank
truck, such as appropriate guidance to drivers on compliance with applicable requirements and the periodic
review of records normally received in the ordinary
course of business concerning gasoline quality and delivery.
(2) In any case in which a refiner or importer would
be in violation under paragraphs (b)(2), (d)(3), or (f)(5)
of this section, the refiner or importer shall not be
deemed in violation if he can demonstrate:
(i) That the violation was not caused by him or his
employee or agent; and
(ii) Test results using the sampling methodology
set forth in § 80.8 and the testing methodology set forth
in § 80.46(c), or any other test method where adequate
correlation to § 80.46(c) is demonstrated, which show
evidence that the gasoline determined to be in violation
was in compliance with the applicable standard when it
was delivered to the next party in the distribution system.
(3) In any case in which a distributor or reseller
would be in violation under paragraph (b)(4), (c)(1),
(d)(1), (e)(2), or (f)(2) of this section, the distributor or
reseller shall not be deemed in violation if he can
demonstrate:
(i) That the violation was not caused by him or his
employee or agent; and
(ii) Evidence of an oversight program conducted by
the distributor or reseller, such as periodic sampling
and testing of gasoline, for monitoring the volatility of
gasoline that the distributor or reseller sells, supplies,
offers for sale or supply, or transports.

81a
(4) In any case in which a refiner would be in violation under paragraphs (c)(3) or (e)(4) of this section, the
refiner shall not be deemed in violation if he can
demonstrate all of the following:
(i) Test results using the sampling methodology set
forth in § 80.8 and the testing methodology set forth in
§ 80.46(c), or any other test method where adequate
correlation to § 80.46(c) is demonstrated, which show
evidence that the gasoline determined to be in violation
was in compliance with the applicable standard when
transported from the refinery.
(ii) That the violation was not caused by him or his
employee or agent; and
(iii) That the violation:
(A) Was caused by an act in violation of law (other
than the Act or this part), or an act of sabotage or vandalism, whether or not such acts are violations of law in
the jurisdiction where the violation of the requirements
of this part occurred, or
(B) Was caused by the action of a reseller, an ethanol blender, or a retailer supplied by such reseller or
ethanol blender, in violation of a contractual undertaking imposed by the refiner on such reseller or ethanol
blender designed to prevent such action, and despite
reasonable efforts by the refiner (such as periodic sampling and testing) to insure compliance with such contractual obligation, or
(C) Was caused by the action of a retailer who is
supplied directly by the refiner (and not by a reseller),
in violation of a contractual undertaking imposed by the
refiner on such retailer designed to prevent such action,
and despite reasonable efforts by the refiner (such as

82a
periodic sampling and testing) to insure compliance
with such contractual obligation, or
(D) Was caused by the action of a distributor or an
ethanol blender subject to a contract with the refiner
for transportation of gasoline from a terminal to a distributor, ethanol blender, retailer or wholesale purchaser-consumer, in violation of a contractual undertaking imposed by the refiner on such distributor or ethanol blender designed to prevent such action, and despite reasonable efforts by the refiner (such as periodic
sampling and testing) to insure compliance with such
contractual obligation, or
(E) Was caused by a carrier or other distributor not
subject to a contract with the refiner but engaged by
him for transportation of gasoline from a terminal to a
distributor, ethanol blender, retailer or wholesale purchaser-consumer, despite reasonable efforts by the refiner (such as specification or inspection of equipment)
to prevent such action, or
(F) Occurred at a wholesale purchaser-consumer
facility: Provided, however, That if such wholesale
purchaser-consumer was supplied by a reseller or ethanol blender, the refiner must demonstrate that the violation could not have been prevented by such reseller’s
or ethanol blender’s compliance with a contractual undertaking imposed by the refiner on such reseller or
ethanol blender as provided in paragraph (g)(4)(iii)(B)
of this section.
(iv) In paragraphs (g)(4)(iii)(A) through (E) of this
section, the term “was caused” means that the refiner
must demonstrate by reasonably specific showings, by
direct or circumstantial evidence, that the violation was
caused or must have been caused by another.

83a
(5) In any case in which a retailer or wholesale purchaser-consumer would be in violation under paragraphs (e)(1) or (f)(1) of this section, the retailer or
wholesale purchaser-consumer shall not be deemed in
violation if he can demonstrate that the violation was
not caused by him or his employee or agent.
(6) In any case in which an ethanol blender would
be in violation under paragraphs (b)(3), (c)(4), (d)(4),
(e)(5) or (f)(4) of this section, the ethanol blender shall
not be deemed in violation if he can demonstrate:
(i) That the violation was not caused by him or his
employee or agent; and
(ii) Evidence of an oversight program conducted by
the ethanol blender, such as periodic sampling and testing of gasoline, for monitoring the volatility of gasoline
that the ethanol blender sells, supplies, offers for sale
or supply or transports; and
(iii) That the gasoline determined to be in violation
contained no more than 15% ethanol (by volume) when
it was delivered to the next party in the distribution
system.
(7) In paragraphs (g)(1)(i), (g)(2)(i), (g)(3)(i),
(g)(4)(ii), (g)(5), and (g)(6)(i) of this section, the respective party must demonstrate by reasonably specific
showings, by direct or circumstantial evidence, that it
or its employee or agent did not cause the violation.
(8) In addition to the defenses provided in paragraphs (g)(1) through (6) of this section, in any case in
which an ethanol blender, distributor, reseller, carrier,
retailer, or wholesale purchaser-consumer would be in
violation under paragraph (b), (c), (d), (e), or (f) of this
section, as a result of gasoline which contains between 9
and 15 percent ethanol (by volume) but exceeds the ap-

84a
plicable standard by more than one pound per square
inch (1.0 psi), the ethanol blender, distributor, reseller,
carrier, retailer or wholesale purchaser-consumer shall
not be deemed in violation if such person can demonstrate, by showing receipt of a certification from the
facility from which the gasoline was received or other
evidence acceptable to the Administrator, that:
(i) The gasoline portion of the blend complies with
the Reid vapor pressure limitations of § 80.27(a); and
(ii) The ethanol portion of the blend does not exceed 15 percent (by volume); and
(iii) No additional alcohol or other additive has been
added to increase the Reid vapor pressure of the ethanol portion of the blend.
In the case of a violation alleged against an ethanol
blender, distributor, reseller, or carrier, if the demonstration required by paragraphs (g)(8)(i), (ii), and (iii) of
this section is made by a certification, it must be supported by evidence that the criteria in paragraphs
(g)(8)(i), (ii), and (iii) of this section have been met, such
as an oversight program conducted by or on behalf of
the ethanol blender, distributor, reseller or carrier alleged to be in violation, which includes periodic sampling and testing of the gasoline or monitoring the volatility and ethanol content of the gasoline. Such certification shall be deemed sufficient evidence of compliance
provided it is not contradicted by specific evidence,
such as testing results, and provided that the party has
no other reasonable basis to believe that the facts stated in the certification are inaccurate. In the case of a
violation alleged against a retail outlet or wholesale
purchaser-consumer facility, such certification shall be
deemed an adequate defense for the retailer or wholesale purchaser-consumer, provided that the retailer or

85a
wholesale purchaser-consumer is able to show certificates for all of the gasoline contained in the storage
tank found in violation, and, provided that the retailer
or wholesale purchaser-consumer has no reasonable basis to believe that the facts stated in the certifications
are inaccurate.

